Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel No.: [212) 619-4949• Fax No. [212) 608-3141

80696
STATE OF NEW YORK,

)
SS:

COUNTY OF NEW YORK

AFFIDAVIT OF SERVICE

]

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 28th day of October 2019 deponent served 3 copies of the within
BRIEF FOR AMICUS CURIAETHE CONSTITUTION PROJECT AT THE PROJECT ON GOVERNMENT
OVERSIGHT IN SUPPORT OF PETITIONER

upon the attorneys at the addresses below, and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAY
DELIVERY:

BY EXPRESS MAIL NEXT BUSINESS DAY
DELIVERY:

Bryce Benjet
The Innocence Project
40 Worth Street, Suite 701
New York, NY 10013
(212) 364-5980
bbenjet@innocenceproject.org

Matthew Ottaway
Office of the Attorney General
for the State of Texas
P.O. Box 12548, Capitol Station
Austin, TX 78711
matthew.ottoway@texasattorneygeneral.gov

Counsel for Petitioner

Counsel for Respondent

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on October 28, 2019, pursuant to Supreme
•
(\
Court Rule 29.5[c). AU parties required to be served, have been served.

dkt~![)~.
Howard Daniels

Sworn to me this

October 28, 2019
ALESSANDRA L. KANE
Notary Public, State of New York
No. 01 KA6340521
Qualified in Richmond County

a£wiii:;;ik

Case Name: Reed v. Texas
Docket/Case No. 19-411

